          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN

          Audit of the Public Buildings
          Service’s Compliance with
          Fee Limitations for
          Architect/Engineering Contracts
          Report Number A090172/P/4/R13004
          March 29, 2013
          Assignment Number A140026
          September 23, 2014




A140026
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 23, 2014
 TO:              Norman Dong
                  Commissioner
                  Public Buildings Service (P)


 FROM:            Melanie Neishi
                  Audit Manager
                  Southeast Sunbelt Region Audit Office (JA-4)
 SUBJECT:         Implementation Review of Corrective Action Plan
                  Audit of the Public Buildings Service’s Compliance with Fee
                  Limitations for Architect/Engineering Contracts
                  Report Number A090172/P/4/R13004, March 29, 2013
                  Assignment Number A140026

This report presents the results of our implementation review of the Audit of the Public
Buildings Service’s Compliance with Fee Limitations for Architect/Engineering
Contracts.

We have completed an implementation review of the management actions taken in
response to the recommendations contained in the subject audit report (see Appendix
A). The objective of our review was to determine whether the Commissioner of the
Public Buildings Service (PBS) has taken the corrective actions as outlined in the June
2013 Action Plan for Audit of the Public Buildings Service’s Compliance with Fee
Limitations for Architect/Engineering Contracts. To accomplish our objective, we:

   1. Examined documentation submitted by PBS supporting accomplishment of the
      Action Plan steps;
   2. Performed limited testing of the implementation of actions outlined in the Action
      Plan; and
   3. Corresponded with PBS personnel.

PBS did not fully address one audit recommendation in the corrective Action Plan. As a
result, a revised corrective Action Plan addressing this open recommendation would
normally need to be submitted within 30 days to the GAO/IG Audit Response Division
(H1C). However, since PBS has taken additional corrective actions prior to the report
issuance, a revised corrective Action Plan is not required.


A140026                                 1
If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Melanie Neishi        Audit Manager       melanie.neishi@gsaig.gov        (415) 522-2787
Rhiannon Mastrocola   Auditor-In-Charge   rhiannon.mastrocola@gsaig.gov   (404) 658-0961

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.




A140026                                   2
Background

On March 29, 2013, we issued an audit report titled Audit of the Public Buildings
Service’s Compliance with Fee Limitations for Architect/Engineering Contracts to the
Commissioner of PBS.

The American Recovery and Reinvestment Act (Recovery Act) provided PBS with $5.55
billion for its Federal Buildings Fund to convert federal buildings into High-Performance
Green Buildings, as well as to construct new federal buildings, courthouses, and land
ports of entry. PBS used Recovery Act funding to procure Architect/Engineering
services that included the production and delivery of designs, plans, drawings, and
specifications. Federal Acquisition Regulation (FAR) Part 15.404-4(c)(4)(i)(B) limits the
estimated cost and fee for these services to 6 percent of the estimated cost of
construction.

Our audit found that PBS lacked adequate guidance to determine compliance with the 6
percent fee limitation imposed by the FAR.

To address the issues identified in the report, we recommended that the Commissioner
of PBS:

    1. Implement clarifying guidance on applying the 6 percent fee limitation to
       Architect/Engineering contracts;
    2. Develop and implement controls to ensure compliance with the fee limitation
       imposed by FAR Part 15.404-4(c)(4)(i)(B); and
    3. Revise Forms 2630 and 2631 to require the Architect/Engineering’s estimator
       and the independent government estimator to identify and separate services
       included in and excluded from the fee limitation.1

The Commissioner of PBS agreed with the report recommendations.

Results

Our implementation review determined that steps 3 and 4 of the corrective actions for
Recommendation 3 had not been taken.

In response to Recommendation 3, PBS stated it would complete the following action
steps:

    1. Receive a draft Professional Services Fee Estimating Guide, including reporting
       forms (revised Form 2630, etc.);
    2. Review and comment on draft forms;
    3. Reconcile comments and circulate final version of the forms; and
    4. Issue final forms.

1
 GSA Form 2630 is the Architect-Engineering Cost Estimate, and GSA Form 2631 is the Architect-
Engineering Cost Summary.


A140026                                   3
We requested supporting documentation to verify whether the forms had been
circulated for step 3. Documentation PBS sent H1C to satisfy this step did not support
that the forms had been circulated. PBS could not confirm that the action step had
been completed and provided a response stating that PBS is planning to issue a
memorandum to address the changes. Therefore, we concluded that PBS did not
satisfy the corrective action for Recommendation 3, step 3.

We reviewed the GSA Forms Library on August 14, 2014, to verify whether the forms
had been issued for step 4. We could not locate recently revised versions of GSA
Forms 2630 and 2631. The latest revision of both GSA Forms 2630 and 2631 was in
February 1971. Correspondence from PBS dated March 18, 2014, indicated that
“formatting issues” had to be addressed before “the form” could be uploaded to the GSA
Forms Library. Therefore, we concluded that PBS did not satisfy the corrective action
for Recommendation 3, step 4.

Corrective Actions Taken

As of August 28, 2014, PBS issued a memorandum announcing the revision of GSA
Forms 2630 and 2631 and their mandatory use, and posted the revised forms to the
GSA Forms Library. PBS completed the revised forms in response to the start of this
review. Additionally, we requested verification of PBS management’s review and
comment for the revised forms. PBS provided correspondence dated August 25, 2014,
that indicated the revised forms met the minimum requirements. Based on the
August 28, 2014, memorandum and the posting of the final revised forms to the GSA
Forms Library, PBS completed the action steps related to Recommendation 3.

Action Required

Normally, the Commissioner of PBS would be required to submit a revised corrective
Action Plan to the GAO/IG Audit Response Division within 30 days indicating the new
corrective actions planned. However, due to the recent issuance of a memorandum
and posting of the revised forms, the open action steps for Recommendation 3 are
considered satisfied. Therefore, a revised Action Plan is not needed.




A140026                                4
Appendix A – Action Plan for Report Number A090172/P/4/R13004




A140026                      A-1
Appendix A – Action Plan for Report Number A090172/P/4/R13004 (cont.)




A140026                       A-2
Appendix A – Action Plan for Report Number A090172/P/4/R13004 (cont.)




A140026                       A-3
Appendix B – Report Distribution
Commissioner, PBS (P)

Deputy Commissioner, PBS (PD)

PBS Chief of Staff (P)

Senior Accountable Official for Recovery Act Activities (PCB)

Regional Recovery Executive (4PC1P)

Regional Recovery Executive (5PN)

Regional Recovery Executive (9P2PT)

National Program Office ARRA Executive, PBS, (PCB)

Chief of Staff, PBS Office of Construction Programs (PCB)

Regional Administrator (4A)

Regional Administrator (5A)

Regional Administrator (9A)

Regional Commissioner (4P)

Regional Commissioner (5P)

Regional Commissioner (9P)

Branch Chief, GAO/IG Audit Response Division (H1C)

Audit Liaison, PBS (BCP)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)




A140026                                B-1
